August 13, 2014

MEMORANDUM FOR:             Lisa Casias
                            Deputy Chief Financial Officer and
                            Director for Financial Management



FROM:                       Andrew Katsaros
                            Acting Principal Assistant Inspector General for
                            Audit and Evaluation

SUBJECT:                    Review of the Department’s Deployment of Business
                            Application Solutions



We are initiating a review of the Department’s deployment of Business Application Solutions
(BAS). Our objective will be to evaluate the discovery and planning phases of the BAS,
determine whether milestones were attained, and identify any challenges as the Department
enters the implementation phase.

We have scheduled an entrance conference for August 18, 2014, at which time we can discuss
our objectives further. In the meantime, if you have any questions about this review, please
contact me at (202) 482-7859 or Patty McBarnette, Director of Financial and Operational
Audits, at (202) 482-3391.

Thank you in advance for your cooperation.
